 

 

In The
Supreme Court of the United States

JP.
Petitioner,
vs.
ARKANSAS,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME COURT OF ARKANSAS

CERTIFICATE OF SERVICE

The undersigned petitioner's counsel hereby certifies that he has served three
copies of the petition for writ of certiorari and one copy of the motion to proceed in forma
pauperis on the State of Arkansas at the address listed below:

Leslie Rutledge

Attorney General

323 Center Street, Suite 200
Little Rock, AR 72201

(501) 682-1324 [phone]

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 21, 2021. Be. Vist

BEN MOTAL
